C@OCKLE

Legal Briefs
Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

No. 20-

STANDING AKIMBO, LLC, A COLORADO LIMITED
LIABILITY COMPANY; PETER HERMES,

AN INDIVIDUAL; KEVIN DESILET, AN INDIVIDUAL;
SAMANTHA MURPHY, AN INDIVIDUAL; AND
JOHN MURPHY, AN INDIVIDUAL,
Petitioners,

Vv.

UNITED STATES OF AMERICA, THROUGH ITS
AGENCY OF THE INTERNAL REVENUE SERVICE,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8978 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of November, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Nebraska draw wv Chk
RENEE J. GOSS: 9. .
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40121
